APPENDIX -A

FILE COPY

COURT OF APPEALS
FOR THE
THIRD DISTRICT OF TEXAS
P.O. Box 12547, AUSTIN, TEXAS 78711-2547
(512) 463-1733

Date:

April 19, 2018

03-17-00054-CV
Appeal No.:
Trial Court No.: C-1-CV-16-003312
09
Style:

Juan A. Martin-de-Nicolas v. AAA Texas County Mutual Insurance Company

The enclosed opinion and judgment were sent this date to the following persons:
Mr. Juan A. Martin-de-Nicolas
5604 Woodview Ave.
Austin, TX 78756
The Honorable Joe Carroll
District Judge, 27th District Court
Bell County Courthouse
P. 0. Box 747
Belton, TX 76513-0747
The Honorable Billy Ray Stubblefield
Administrative Judge
Williamson County Courthouse
405 Martin Luther King, Box 2
Georgetown, TX 78626
* DELIVERED VIA E-MAIL *

The Honorable Dana DeBeauvoir
Civil County Clerk
Travis County Courthouse
P. 0. Box 149325
Austin, TX 78714
* DELIVERED VIA E-MAIL *
Mr. Brett H. Payne
Walters Balido & Crain, LLP
9020 N. Capital of Texas Highway, Ste. 225
Austin, TX 78759
* DELIVERED VIA E-MAIL *

TEXAS COURT OF APPEALS, THIRD DISTRICT, AT AUSTIN

NO. 03-17-00054-CV

Juan A. Martin-de-Nicolas, Appellant
v.
AAA Texas County Mutual Insurance Company, Appellee

FROM COUNTY COURT AT LAW NO. 2 OF TRAVIS COUNTY
NO. C-1-CV-16-003312, HONORABLE JOE CARROLL, JUDGE PRESIDING

MEMORANDUM OPINION

Juan A. Martin-de-Nicolas sued his insurer AAA Texas County Mutual Insurance
Company ("AAA") in justice court after AAA, despite his protestations, settled a claim pertaining
to a car accident that Martin-de-Nicolas was involved in. AAA filed a motion for summary judgment
arguing that the terms of the insurance policy issued to Martin-de-Nicolas authorized it to make the
settlement, and the justice court granted the motion for summary judgment. Martin-de-Nicolas
appealed to the county court at law, and AAA filed another motion for summary judgment arguing
that the settlement was proper. The county court at law granted AAA's motion for summary judgment.
In several issues on appeal, Martin-de-Nicolas contends that the county court at law erred by granting
AAA's motion for summary judgment. We will affirm the order of the county court at law granting
AAA's motion for summary judgment.

BACKGROUND
This appeal stems from a car accident involving Martin-de-Nicolas in which Martinde-Nicolas' s car hit a parked vehicle belonging to Rex Jones. After the accident, Martin-de-Nicolas's
insurer, AAA, settled a claim made by Jones pertaining to the accident.
As a result of the car accident, Martin-de-Nicolas filed two separate lawsuits. The
first lawsuit was against Jones and was filed in justice court. See Martin-de-Nicolas v. Jones,
No. 03-13-00318-CV, 2014 WL 4414827 (Tex. App.—Austin Aug. 28, 2014, pet. dism'd w.o.j.)
(mem. op.). In that suit, Martin-de-Nicolas argued that Jones parked his vehicle in a negligent
manner by parking the car facing oncoming traffic and that Jones's actions violated relevant
governing laws and caused the accident. See Tex. Transp. Code § 545.303(a) (providing that driver
"who stops or parks on a two-way roadway shall do so with the right-hand wheels of the vehicle
parallel to . . . the right-hand curb or edge of the roadway"). After a trial in justice court, the jury
determined that Jones was not negligent, that Martin-de-Nicolas "was negligent and was onehundred percent at fault for causing the crash," and that Martin-de-Nicolas "should recover zero
damages." See Jones, 2014 WL 4414827, at *1. Martin-de-Nicolas then sought to appeal to the
county court at law, but the county court at law dismissed the suit for lack of jurisdiction on the
ground that Martin-de-Nicolas ' s appeal bond was not timely filed. See Tex. R. Civ. P. 506.1 (setting
out procedure for appealing from judgment rendered by justice court). Martin-de-Nicolas then
appealed to this Court, and this Court affirmed "the judgment dismissing appellant's appeal to
the county court at law for want of jurisdiction." See Jones, 2014 WL 4414827, at *4.
The second suit was filed by Martin-de-Nicolas against AAA, was similarly filed in
justice court, and was stayed pending final resolution of the first suit. In the second suit, Martin2

de-Nicolas alleged that he instructed AAA to refuse to pay any damage claim that Jones made
because Jones parked his car in a negligent and illegal manner, that AAA "falsely attributed fault to"
Martin-de-Nicolas "in order to preemptively vacate their duty to defend" him "in the event that . . .
Jones filed a suit to recover damages," that AAA's actions were inconsistent with its "express
warrant[y] made in their liability policy" stating that AAA will only pay for damages for which the
policy holder is legally liable, and that AAA's actions constituted fraud and were violations of the
Deceptive Trade Practices Act and of chapter 541 of the Insurance Code. In response, AAA filed
a combined traditional and no-evidence motion for summary judgment contending that Martin-deNicolas "failed to state a claim on which he can recover" because "no recognized cause of action in
common law fraud," in the Deceptive Trade Practices Act, or in "Chapter 541 applies to this set of
facts" in which the express terms of the insurance policy allow AAA to settle claims, including the
one at issue, that it deemed appropriate. Alternatively, AAA asserted that there was no evidence that
AAA committed fraud, "violated the Texas Deceptive Trade Practices Act, or violated Chapter 541
of the Insurance Code" in this case. After reviewing the motion for summary judgment and the
various responses, the justice court issued an order granting AAA's motion.
Following that ruling, Martin-de-Nicolas appealed to the county court at law. In
response, AAA filed another combined traditional and no-evidence motion for summary judgment.
When referring to Martin-de-Nicolas' s petition filed in the justice court,' AAA repeated its assertion
that the basis for Martin-de-Nicolas 's suit is not supported by the language of the policy and also

' The record does not contain a petition that was filed in the county court at law, and Martinde-Nicolas asserts in his appellate briefing that his petition "from JP Court carrie[d] forward to
County Court."
3

repeated its contention that there was no evidence of fraud or any violation of the Deceptive Trade
Practices Act or the Insurance Code. AAA attached to its motion for summary judgment a copy of
the insurance policy purportedly issued to Martin-de-Nicolas by AAA for the time in question.
After reviewing the motion, Martin-de-Nicolas filed a response asserting that AAA
failed to comply with various discovery requests, that the insurance-policy language relied on by
AAA did not come from Martin-de-Nicolas' s actual policy, that there is a genuine issue of material
fact precluding summary judgment, and that AAA's no-evidence motion for summary judgment did
not identify the essential elements for which there was no evidence, and Martin-de-Nicolas also
included in his response an objection to having a visiting judge preside over the summary-judgment
proceedings. As support for his claim that AAA was relying on the wrong policy when moving for
summaryjudgment, Martin-de-Nicolas attached to his response to the motion for summary judgment
certified documents from the Commissioner of Insurance consisting "of copies of the AAA . . .
Personal Automobile Insurance Policy approved" for the year in question that Martin-de-Nicolas
obtained after filing an open-records request. The language of the pertinent portion of the policy
differs from the language of the policy that AAA attached in its motion.
After reviewing the motion and the response, the county court at law issued an
order granting the motion for summary judgment without specifying whether it was granting the
motion on no-evidence or traditional grounds.
Martin-de-Nicolas appeals the order by the county court at law.

4

STANDARD OF REVIEW AND GOVERNING LAW
"We review the granting of a motion for summary judgment de novo." Merriman v.
X7'0 Energy, Inc., 407 S.W.3d 244, 248 (Tex. 2013). "When the trial court does not specify the
grounds for its ruling, a summary judgment must be affirmed if any of the grounds on which judgment
is sought are meritorious." Id. "When a party moves for summary judgment on both traditional and
no-evidence grounds," reviewing courts "first address the no-evidence grounds . . . because if the
non-movant fails to produce legally sufficient evidence to meet his burden as to the no-evidence
motion, there is no need to analyze whether the movant satisfied its burden under the traditional
motion." Id. (internal citation omitted).
"After adequate time for discovery, a party without presenting summary judgment
evidence may move for summary judgment on the ground that there is no evidence of one or more
essential elements of a claim or defense on which an adverse party would have the burden of proof
at trial," and "[t]he motion must state the elements as to which there is no evidence." Tex. R. Civ.
P. 166a(i). "No-evidence summary judgments are reviewed under the same legal sufficiency standard
as directed verdicts." Merriman, 407 S.W.3d at 248. "Under that standard, evidence is considered
in the light most favorable to the nonmovant, crediting evidence a reasonable jury could credit
and disregarding contrary evidence and inferences unless a reasonable jury could not." Id. The
nonmovant has the burden of producing summary-judgment evidence "'raising a genuine issue of
material fact' for each challenged element. Johnson v. Brewer & Pritchard, P.C., 73 S.W.3d 193,
206 (Tex. 2002) (quoting Tex. R. Civ. P. 166a(i)). A no-evidence challenge will be sustained when
"(a) there is a complete absence of evidence of a vital fact, (b) the court is barred by rules of law

5

or of evidence from giving weight to the only evidence offered to prove a vital fact, (c) the evidence
offered to prove a vital fact is no more than a mere scintilla, or (d) the evidence conclusively
establishes the opposite of the vital fact.'" King Ranch, Inc. v. Chapman, 118 S.W.3d 742, 751
(Tex. 2003) (quoting Merrell Dow Pharms., Inc. v. Havner, 953 S.W.2d 706, 711 (Tex. 1997)).
In a traditional summary-judgment motion, the movant has the burden of showing'
that there is no genuine issue of material fact and that it is entitled to judgment as a matter of law.
See Tex. R. Civ. P. 166a(c); Browning v. Prostok, 165-S.W.3d 336, 344 (Tex. 2005). We take as
true evidence favorable to the nonmovant and resolve all doubts in its favor. Little v. Texas Dep't
of Criminal Justice, 148 S.W.3d 374, 381 (Tex. 2004); Harwell v. State Farm Mut. Auto. Ins. Co.,
896 S.W.2d 170, 173 (Tex. 1995). The movant is entitled to summary judgment if the evidence
disproves, as a matter of law, at least one element of each of the plaintiff's causes of action or
conclusively establishes each element of an affirmative defense. Friendswood Dev. Co. v. McDade
& Co., 926 S.W.2d 280, 282 (Tex. 1996); see Ryland Grp., Inc. v. Hood, 924 S.W.2d 120, 121
(Tex. 1996).
Resolving the issues presented in this appeal requires an evaluation of the terms of
the insurance policy that Martin-de-Nicolas had with AAA. "Insurance policies are contracts and
therefore are controlled by rules of construction applicable to contracts generally." Columbia Cas.
Co. v. CP Nat'l, Inc., 175 S.W.3d 339, 343 (Tex. App.—Houston [1st Dist.] 2004, no pet.). "The
construction of an unambiguous contract is a question of law for the court," which we review
de novo. Tawes v. Barnes, 340 S.W.3d 419, 425 (Tex. 2011). "A contract is not ambiguous simply
because the parties disagree over its meaning." Dynegy Midstream Servs., Ltd. P 'ship v. Apache
Corp., 294 S.W.3d 164, 168 (Tex. 2009). Rather, a contract is ambiguous only when "its meaning
6

is uncertain and doubtful or is reasonably susceptible to more than one interpretation." Heritage
Res., Inc. v. NationsBank, 939 S.W.2d 118, 121 (Tex. 1996). "If only one party's construction is
reasonable, the policy is unambiguous and we will adopt that party's construction." RSUI Indem. Co.
v. The Lynd Co., 466 S.W.3d 113, 118 (Tex. 2015). "But if both constructions present reasonable
)
•
interpretations of the policy's language, we must conclude that the policy is ambiguous." Id. In that
circumstance, "we must resolve the uncertainty by adopting the construction that most favors the
insured." National Union Fire Ins. Co. of Pittsburgh, Pa. v. Hudson Energy Co., 811 S.W.2d 552,
555 (Tex. 1991).
"When discerning the contracting parties' intent, courts must examine the entire
agreement and give effect to each provision so that none is rendered meaningless." Tawes, 340 S.W.3d
at 425. When performing this review, no single provision will be given controlling effect; instead,
all of the provisions must be considered in light of the whole agreement. Id. "In construing a
written contract, the primary concern of the court is to ascertain the true intentions of the parties as
expressed in the instrument." Valence Operating Co. v. Dorsett, 164 S.W.3d 656, 662 (Tex. 2005).
Accordingly, we "give contract terms their plain and ordinary meaning unless the instrument
indicates the parties intended a different meaning." Apache Corp., 294 S.W.3d at 168. "When
construing an insurance policy, we are mindful of other courts' interpretations of policy language
that is identical or very similar to the policy language at issue." RSUI Indem. Co., 466 S.W.3d at 118.

DISCUSSION
On appeal, Martin-de-Nicolas generally contends that the county court at law erred
by granting AAA's "motion for traditional and no-evidence summary judgment." After listing this
7

general issue, Martin-de-Nicolas presents seven more specific subis sues that he contends fall within
this general issue. Regarding the extent to which the county court at law granted the no-evidence
motion, Martin-de-Nicolas argues that the county court at law erred because "AAA's no-evidence
motion for summary judgment is fatally flawed in that it failed to specifically state the essential
element(s) of [his] theories of recovery as to which it alleged there is no evidence" and because AAA
abused and delayed "the discovery process by frivolously objecting to all discovery requests and
using the summary judgment procedure to circumvent discovery." Regarding the extent to which
the county court at law granted the traditional summary-judgment motion, Martin-de-Nicolas asserts
that if the county court at law construed the insurance policy in the manner suggested by AAA, the
county court at law erred because Martin-de-Nicolas' s construction of the policy "is the only one
which does not do violence to the rules of law or rules of contract construction" regardless of
whether the language of the policy is ambiguous or unambiguous. In addition, Martin-de-Nicolas
argues that the county court at law's ruling was improperly based on evidence that AAA "fraudulently
produced" when moving for summary judgment and on grounds relating to the Jones lawsuit that
are separate and distinct from the issues present in this case. Next, Martin-de-Nicolas urges that the
grounds upon which AAA sought summary judgment "required AAA to first file special exceptions"
and required the county court at law "to sustain" the special exceptions before the complaints "could
be raised via a motion for summary judgment." Finally, Martin-de-Nicolas insists that the county
court at law's order must be reversed because he "timely objected to having the summary judgment
proceeding presided [over] by a visiting judge" but that "a visiting judge presided over the summary
judgment hearing and signed the summary judgment order" over his objections.

8

No-Evidence Motion for Summary Judgment
As set out above, in his fifth subissue, Martin-de-Nicolas contends that AAA's
allegation in its no-evidence motion for summary judgment that "there is no evidence" that AAA
"committed fraud" or "violated the Texas Deceptive Trade Practices Act" or "Chapter 541 of the
Texas Insurance Code" did not sufficiently identify the elements of Martin-de-Nicolas' s claims for
which there was no evidence and, accordingly, argues that the county court at law erred by granting
the no-evidence motion. See Tex. R. Civ. P. 166a(i). In his third subissue, Martin-de-Nicolas asserts
that the county court at law erred by granting the no-evidence motion for summary judgment because
the motion was granted before there had been an "adequate opportunity for discovery" as required
by Rule of Civil Procedure 166a(i) and because AAA abused the discovery process by refusing to
respond to discovery requests before moving for summary judgment on no-evidence grounds.
See id.; see also Tempay, Inc. v. TNT Concrete & Constr., Inc., 37 S.W.3d 517, 520-21 (Tex.
App.—Austin 2001, pet. denied) (noting that "[w]hen a party contends that it has not had an
adequate opportunity for discovery before a summary-judgment hearing, it must file either an
affidavit explaining the need for further discovery or a verified motion for continuance" and that
goal of judicial economy found in Rule 166a is balanced "with the safeguard that nonmovants be
entitled to" adequate amount of time for discovery).
As will be set out below, we ultimately determine that the county court at law did not
err by granting the motion on traditional summary-judgment grounds. Accordingly, we need not
consider whether the no-evidence portion of AAA's motion for summary judgment could also
support the judgment. See Tex. R. App. P. 47.1.

9

Traditional Motion for Summary Judgment
Different Versions of the Insurance Policy
In his first subissue on appeal, Martin-de-Nicolas insists that the policy that AAA
attached to its summary-judgment motion did not contain the same terms as the policy issued to him
and, therefore, had no applicability to this case. Further, Martin-de-Nicolas notes that after AAA
moved for summary judgment, he filed a response and attached to his response a copy of the actual
insurance policy from AAA in effect at the time of the accident that he obtained from the Department
of Insurance and that was certified by the Commissioner of Insurance. Moreover, Martin-de-Nicolas
urges that the county court at law improperly made its summary-judgment ruling based on the terms
of the policy submitted by AAA.
The language of the policy attached by AAA to its motion for summary judgment
provided, in relevant part, as follows: "We will pay damages for bodily injury or property damage
for which any covered person becomes legally responsible because of an auto accident. . . . We will
settle or defend, as we consider appropriate, any claim or suit asking for these damages." The
language of the policy relied on by Martin-de-Nicolas provided, in relevant part, as follows:

We will pay damages for which any insured is legally liable because of bodily
injury or property damage caused by an auto accident.

We will defend any suit claiming damages under Part I. We will defend suit even
if the allegations are groundless, false[,] or fraudulent.

4. We may settle any claim or suit as we think appropriate.
10

On appeal, Martin-de-Nicolas notes the differences in the language used in the two
policies offered during the summary-judgment proceedings and further argues that the policy offered
by AAA had policy numbers within it corresponding both to his policy and to the policy of another
individual. Further, Martin-de-Nicolas observes that the copy of the policy submitted to the justice
court was certified by a different AAA employee than the copy of the policy submitted by AAA to
the county court at law and notes that AAA failed to provide "any explandtion for the need to correct
or amend." Moreover, Martin-de-Nicolas urges that the policy that he presented is the true version
of the policy that he purchased and contains the obligatory language framing his contention that
AAA did not have the authority to settle the claim with Jones.
In light of the preceding, Martin-de-Nicolas contends that AAA's grounds for summary
judgment were dependent on the language from the policy that it submitted as summary-judgment
evidence and that AAA fabricated the policy in order to obtain summary judgment. Furthermore,
Martin-de-Nicolas asserts that as a result of the language of the policy having been contradicted by
the version certified by the Commissioner of Insurance, AAA failed to meet its burden of establishing
that there were no genuine issues of material fact. In response, AAA indicates in its appellee's brief
that there was a dispute as to which policy was in effect when the car accident occurred but contends
that it was entitled to summary judgment regardless of which policy language applied.
As an initial matter, we note that the language of both policies was before the county
court at law when it made its summary-judgment ruling. In addition, we note that although the
structure of the language of the policies differed slightly, the language of the relevant portions of
the two policies setting out AAA's obligations is nearly identically worded. Accordingly, although

11

there could conceivably have been some dispute regarding which of the two policies actually
applied to the accident at issue, we cannot agree with Martin-de-Nicolas 's assertion that the
existence of the two policies meant that there was a genuine issue of material fact regarding whether
AAA was authorized to settle the underlying claim because both policies seem to impose the same
requirements and obligations on AAA. In other words, a determination regarding whether AAA was
authorized to settle the claim would not seem to depend on which of the two policies was in effect
at the time of the accident. However, in light of Martin-de-Nicolas 's assertion that the certified
version of the policy that he submitted was the true policy and did not authorize AAA's actions in
this case, we will assume for the sake of argument that Martin-de-Nicolas presented the correct
policy in his response and will refer to this version of the policy when addressing the remainder of
Martin-de-Nicolas' s subissues.
For these reasons, we overrule Martin-de-Nicolas 's first subissue on appeal.

Construction of Policy Terms
In his second subissue, Martin-de-Nicolas argues that the county court at law erred
by granting the traditional portion of the motion for summary judgment because the terms of the
insurance policy did not authorize AAA to pay a claim made by Jones regarding the accident. When
presenting this subissue, Martin-de-Nicolas acknowledges AAA's assertion that the terms of the
policy authorized AAA to settle claims that it deemed appropriate and then contends that the policy
must "be ambiguous because he interprets the policy as not conferring the fight to 'chose to settle"'
and must, therefore, be construed in his favor. Alternatively, Martin-de-Nicolas asserts that his

12

"policy interpretation is the only one which gives effect to all policy provisions and will not do
violence to rules of law or policy construction."
When presenting his construction arguments on appeal, Martin-de-Nicolas points to
the language stating that AAA will pay for damages for which an insured "is legally liable" and urges
that "the only way to become legally responsible [or liable] for damages is if the determination is
made by applying Texas law to the facts of an accident." Further, Martin-de-Nicolas contends that
under the terms of the policy, AAA was required to investigate and determine, on its own, whether
its policyholder was legally responsible for the damages. In addition, Martin-de-Nicolas argues that
under the policy, AAA may only pay for damages after it determines that a policyholder is legally
responsible for the damages and that AAA may "not pay for damages where the [policyholder] is not
legally liable because those damages are not covered by the policy." When applying that construction
to the present case, Martin-de-Nicolas insists that AAA should have deterMined for itself that he was
not legally responsible because Jones was negligent per se for parking his car in the wrong direction
and, therefore, should have refused to pay any damages claimed by Jones!
Although Martin-de-Nicolas offers an interpretation of what he believes AAA's
obligations are under the terms of the policy, AAA offers another construction of the relevant
provisions of the contract. Specifically, AAA argues that the policy obligates AAA to'pay for damages

2 In his brief, Martin-de-Nicolas refers to various provisions of the Transportation Code
specifying that an insurance company "may settle a claim covered by the policy," see Tex. Transp.
Code § 601.073(e), and that a "liability insurance policy must . . . pay . . . amounts the insured becomes
obligated to pay as damages," see id. §§ 601.076, .077. Based on those provisions, Martin-de-Nicolas
avers that "an insurance company may not settle claims that are not covered by the policy—namely
those where the, insured is not legally obligated to pay." However, we do not read these statutes as
prohibiting the settlement of claims by an insurance company under the circumstances present here.

13

that its insured is "legally liable" for, meaning that AAA is obligated to pay damages after a legal
decision by a court or other adjudicative body has determined that AAA's policyholder was responsible
for causing the damages. Moreover, AAA asserts that in addition to obligating AAA to pay after a
judicial determination has been made, the policy authorizes AAA to settle claims or suits without
the need for a legal determination of responsibility to avoid the expense of litigation when it
determines that settling is "appropriate."
When construing the policy at issue, we note as an initial matter that Martin-deNicolas's construction would prohibit AAA from paying on a claim after making its own assessment
of the claim even if, as happened in the first suit filed by Martin-de-Nicolas, a trial court has
determined that its policyholder caused the damages and was legally liable. That construction would
run contrary to the statutory requirement imposed on insurers to pay damages that a policyholder
has "become legally obligated to pay." See Tex. Transp. Code §§ 601.076, .077. Moreover, Martinde-Nicolas' s interpretation, unlike AAA's, does not give effect to all of the provisions of the policy
and essentially renders the settlement clause meaningless. Further, AAA's construction is consistent
with the plain meaning of the provisions requiring AAA to pay when an insured is legally liable for
damages and empowering AAA with the discretion to settle suits or claims where "appropriate."
See Liable, Black's Law Dictionary 998 (9th ed. 2009) (defining "liable" as meaning "[r]esponsible
or answerable in law; legally obligated"). In addition, as set out below, AAA's interpretation is
consistent with the construction given by appellate courts considering other types of insurance policies.
For example, in Dear v. Scottsdale Insurance Company, our sister court of appeals
was faced with an issue regarding whether a provision in a professional-liability insurance policy

14

authorizing an insurer "to settle any claim or suit as it 'deems expedient' authorized the insurer to
settle claims within the liability limits without the approval of the insured. 947 S.W.2d 908, 911,
913-14 (Tex. App.—Dallas 1997, writ denied), disapproved of on other grounds by Apex Towing
Co. v. Tolin, 41 S.W.3d 118, 122-23 (Tex. 2001) (disavowing portion of Dear decision potentially
deciding that tolling rule should not apply to certain legal-malpractice cases). On appeal, our sister
court determined that the language of the policy "unambiguously vest[ed] [the insurance company]
with an absolute right to settle third-party claims in its own discretion and without [the policyholder] 's
consent, even if the allegations of the suit are groundless, false, or fraudulent." Id. at 913-14. Further,
the court explained that "[b]y purchasing an insurance policy that did not provide him the right to
veto settlement of third-party claims, [the policyholder] gave up the right to complain that any
settlement [the insurance company] entered somehow damaged him." Id. at 914. In addition, the
court concluded that the insurer owed the insured "no duty of good faith and fair dealing" regarding
its investigation of the claim and its decision to settle. Id. Finally, the court determined that the
insurer "had an unambiguous contractual right to settle the claims asserted against [the policyholder]
and that it cannot be liable under any theory for exercising that right." Id. at 915. Relying on
Dear, that same court later construed the terms of an automobile-insurance policy authorizing
the insurance company to "'investigate and settle any claim or suit as [the insurance company]
consider[s] appropriate' and concluded that the language "vested [the insurance company] with
an absolute right to settle third party claims based on its own discretion" and did not require
the policyholder's "consent for a settlement." Stevens Transp., Inc. v. National Cont'l Ins. Co.,
No. 05-98-00244-CV, 2000 WL 567225, at *1, *3 (Tex. App.—Dallas May 11, 2000, no pet.) (not
designated for publication).
15

A similar conclusion was reached by another one of our sister courts of appeals when
it was asked to construe the terms of a worker's compensation policy. See Wayne Duddlesten, Inc.
v. Highland Ins. Co., 110 S.W.3d 85, 89-90 (Tex. App.—Houston [1st Dist.] 2003, pet. denied).
In that case, the terms of the policy provided, in relevant part, that the insurance company 'will
pay promptly when due the benefits required of you by the Worker's Compensation law"; had
"the right and duty to defend at our expense ,any claim, proceeding[,] or suit against you for
benefits payable by this insurance"; and had 'the right to investigate and settle these clairns[,]
proceedings[,] or suits."' Id. at 90. The policyholder argued that the insurer violated the terms of
the policy by settling "claims that should not have been covered by the policy." Id. When resolving
the issue on appeal, our sister court determined that if the insurance company exercised its right
under the policy "to settle a claim, then payment will be required" under the remaining portions of
the policy. Id. Further, the court noted that there was "no requirement in the policy that [the
insurance company] obtain the consent of [the policyholder] when settling a claim or investigating
the merits of a claim" and that the insurance company's "discretion in investigating and settling
claims is not contractually limited." Id.
For all of these reasons, we conclude that the terms of the policy are not ambiguous
and that the policy affords AAA the discretion to settle claims made against its insured, including
the claim at issue, without the insured's consent and without the need for a judicial determination
regarding whether its insured was legally liable for the damages. Accordingly, we overrule Martinde-Nicolas's second subissue on appeal.'

3 As further support for his construction of the insurance policy, Martin-de-Nicolas asserts
that if an insurance company "had the right to 'choose to settle' for whatever reason," then "an

16

Special Exceptions
In his fourth subissue on appeal, Martin-de-Nicolas contends that the county court
at law should not have granted the traditional motion for summary judgment because AAA was
required to but did not file special exceptions pointing out any defects in Martin-de-Nicolas 's
pleadings before seeking summary judgment. See Tex. R. Civ. P. 91 (stating that "[a] special exception
shall not only point out the particular pleading excepted to, but it shall also point out intelligibly and
with particularity the defect, omission, obscurity, duplicity, generality, or other insufficiency in the
allegations in the pleading excepted to"); see also Centennial Ins. Co. v. Commercial Union Ins. Cos.,
803 S.W.2d 479, 482 (Tex. App.—Houston [14th Dist.] 1991, no writ) (noting "that the protective
features of the special exception procedure should not be circumvented by a motion for summary
judgment on the pleadings or other means where a plaintiff's pleadings fail to state a cause of
action"). Stated differently, Martin-de-Nicolas contends that the basis of AAA's traditional motion
for summary judgment was that he failed to state a claim upon which he could recover and further
argues special exceptions must be filed before summary judgment can be granted on those grounds.
In its motion for summary judgment, AAA did not assert that it was entitled to
summary judgment because there was a defect or other insufficiency in Martin-de-Nicolas 's

insurance company who insures both parties in a two-car accident could systematically 'choose to
settle' with the party who has the lowest damages; thus systematically assuring [itself] the lowest
payouts and the highest profits possible." As an initial matter, we, note that the potential for this
possibility would seem to exist in the circumstance in which both insureds only had liability
coverage. More importantly, even if an insurer settled the claim for the lower payout, the dissatisfied
driver could still sue the driver who settled and seek a legal determination that the settled driver was
legally responsible for the damages and thereby seek recovery from the insurance company, which
would be legally obligated to cover damages awarded by the trial court under the terms of the
insurance policy.
17

pleadings; rather, it asserted that it was entitled to judgment as a matter of law because "no
recognized cause of action' authorized recovery under the facts of this case. More specifically,
AAA argued that Martin-de-Nicolas 's claims are based on his interpretation of the insurance policy;
that the express terms of the insurance policy authorized AAA to, "within its discretion, settle a
claim made against the policy"; and that "an insurer paying a claim within its discretion, though the
insured disagrees with the decision to pay, is not a violation of any law." In other words, AAA
asserted that it was entitled to summary judgment, as a matter of law, because the terms of the policy
authorized the disputed payment and "did not seek summary judgment on the basis that [Martinde-Nicolas] failed to state a cause of action or any other pleading deficiency." See Williams v.
Adventure Holdings, L.L.C., No. 05-12-01610-CV, 2014 WL 1607374, at *2 (Tex. App.—Dallas
Apr. 22, 2014, pet. denied) (mem. op.). Accordingly, We cannot conclude that the county court at
law erred when it granted AAA's motion for summary judgment "because the motion was not
attempting to circumvent the filing of special exceptions." See id.; see also Friesenhahn v. Ryan,
960 S.W.2d 656, 658 (Tex. 1998) (explaining that "[s]ummary judgment may . . . be proper if a
pleading deficiency is of the type that could not be cured by an amendment"); Champion Printing
& Copying LLC v. Nichols, No. 03-15-00704-CV, 2017 WL 3585213, at *16 (Tex. App.—Austin
Aug. 18, 2017, pet. denied) (mem. op.) (determining that "special exceptions were not required and
summary judgment was appropriate").
For these reasons; we overrule AAA's fourth subissue.

18

Separate Matters
In his sixth subissue, Martin-de-Nicolas argues that AAA improperly included details
from his lawsuit against Jones in its motion for summary judgment and urges that "if summary
judgment was granted on those extrinsic details, it was improperly granted." See Stephens v. LNV
Corp., 488 S.W.3d 366, 374 (Tex. App.—El Paso 2015, no pet.) (providing that "`[a] motion for
summary judgment must itself expressly present the grounds upon which it is made, and must stand
or fall on these grounds alone' (quoting Science Spectrum, Inc. v. Martinez, 941 S.W.2d 910, 912
(Tex. 1997))). More specifically, Martin-de-Nicolas contends that the details and the verdict
pertaining to his lawsuit against Jones "are immaterial to the case at hand." Alternatively, Martinde-Nicolas insists that if "it would have been proper to tie the fate of the two cases together,
AAA should have but failed to request that the cases be consolidated. See Tex. R. Civ. P. 174(a)
(authorizing trial courts to consolidate cases "involving a common question of law or fact").
Although AAA mentioned some of the underlying facts and procedural aspects of
the lawsuit against Jones in its summary-judgment motion, the grounds upon which it sought
summary judgment were independent of the outcome or underlying facts of the lawsuit against
Jones. Moreover, as previously discussed above, AAA urged that summary judgment was warranted
in this case because the insurance policy provided AAA with the discretion to settle claims, and
we previously determined that AAA's construction of the terms of the policy was reasonable
and correct. Accordingly, we cannot conclude that the county court at law's summary-judgment
ruling was improperly based on extrinsic facts, and we overrule Martin-de-Nicolas' s sixth subissue
on appeal.

19

Objection to Presiding Judge
In his final subissue on appeal, Martin-de-Nicolas contends that summary judgment
was improperly granted in this case because before the county court at law made its ruling, he filed
a written objection to the case being presided over by a visiting judge.
At the end of his response to AAA's motion for summary judgment, Martin-deNicolas included the following request and objection:

Plaintiff hereby respectfully objects to this or any other motion being heard or
decide[d] by a visiting judge. Plaintiff respectfully requests that it be the elected
judge of the court [] who hears and rules on this and any future motion or trial.

On appeal, Martin-de-Nicolas contends that in light of his request, the presiding judge should
have been removed from the case under section 74.053 of the Government Code. See Tex. Gov't
Code § 74.053.
Section 74.053 does allow parties to object to a judge who has been assigned to
preside over a trial and who is not the duly-elected or appointed judge for that trial court. Id. In
particular, the provision states that "[i]f a party to a civil case files a timely objection to the
assignment, the judge shall not hear the case." Id. § 74.053(b). "Unlike disqualification of a judge
based on a constitutional prohibition, which can be raised at any point in a proceeding, a statutory
basis for recusal of a judge can be waived." Sweetwater Austin Props., L.L.C. v. SOS All., Inc.,
299 S.W.3d 879, 890 (Tex. App.—Austin 2009, pet. denied). In other words, "[b]ecause the
prohibition from hearing a case under section 74.053 is nonconstitutional, . . . the objection is waivable
and must be presented and ruled upon to trigger any mandatory prohibition." Texas Emp 't Comm 'n
v. Alvarez, 915 S.W.2d 161, 165 (Tex. App.—Corpus Christi 1996, no writ) (emphasis added).
20

Nothing in the record before this Court indicates that Martin-de-Nicolas made
any attempt to present his objection or have it ruled upon by the presiding judge. Accordingly, we
must conclude that the alleged error has not been preserved for appellate consideration and overrule
Martin-de-Nicolas' s final subissue on appeal. See id. at 166 (concluding that party waived written
objection under section 74.053 "by proceeding to trial without first presenting its . . . objection
and obtaining a ruling from the assigned judge"); see also Tex. R. App. P. 33.1(a) (setting out
requirements for preserving "a complaint for appellate review"). But see Lone Star Indus., Inc. v.
Ater, 845 S.W.2d 334, 336 (Tex. App.—El Paso 1992, no writ) (observing thai "[s]ince the question
of the qualification of a retired judge to serve on assignment is a jurisdictional question, it cannot
be waived and can be raised at any time").4

When asserting that it was error for the visiting judge to render summary judgment after he
filed his objection, Martin-de-Nicolas primarily relies on NCF, Inc. v. Harless, 846 S.W.2d 79 (Tex.
App.—Dallas 1992, orig. proceeding). In that case, a party sought mandamus relief after seeking
to remove under section 74.053 a judge who had been assigned to the case. Id. at 80. When
discussing the applicable law, our sister court of appeals noted that "[o]nce a party makes a timely
objection under section 74.053, disqualification of the assigned judge is automatic, and any
subsequent orders that he issues are nullities." Id. at 81. Then, the court determined that the party
was entitled to mandamus relief because the trial judge's disqualification was mandatory. Id. at 83.
We believe that Martin-de-Nicolas' s reliance on NCF is misplaced. As an initial matter, we
note that this case does not involve a situation in which the party sought to enforce its objection to
the assigned judge by filing a petition for writ of mandamus. Further, to the extent that the language
from the opinion by our sister court of appeals can be read as suggesting that the filing of an objection
to an assigned judge under section 74.053, without more, results in automatic disqualification and
renders any ruling rendered after the objection void, we believe that this language is inconsistent
with the language of the subsequent opinion discussed above indicating that an objection under
section 74.053 can be waived by inaction. See Texas Emp't Comm'n v. Alvarez, 915 S.W.2d 161,
165 (Tex. App.—Corpus Christi 1996, no writ). In any event, we are not bound by the analysis from
our sister court.
21

For all the reasons previously given, we must conclude that the county court at law
did not err by granting AAA's traditional motion for summary judgment.'

CONCLUSION
Having determined that the county court at law did not err by granting AAA's
traditional motion for summary judgment, we affirm the order of the county court at law granting
AAA's motion for summary judgment.

David Puryear, Justice
Before Justices Puryear, Pemberton, and Bourland
Affirmed
Filed: April 19, 2018

In his reply brief, Martin-de-Nicolas presents fifteen separate objections to AAA's
appellee's brief, ranging from attacks on AAA's statement of the case and list of the issues presented
to attacks on the argument section of AAA's brief. In resolving the issues presented on appeal, it
is not necessary to make any formal ruling regarding these challenges, but those challenges were
considered when framing this opinion.
22

TEXAS COURT OF APPEALS, THIRD DISTRICT, AT AUSTIN

JUDGMENT RENDERED APRIL 19, 2018

NO. 03-17-00054-CV

Juan A. Martin-de-Nicolas, Appellant
v.
AAA Texas County Mutual Insurance Company, Appellee

APPEAL FROM COUNTY COURT AT LAW NO. 2 OF TRAVIS COUNTY
BEFORE JUSTICES PURYEAR, PEMBERTON, AND BOURLAND
AFFIRMED -- OPINION BY JUSTICE PURYEAR

This is an appeal from the judgment signed by the trial court on Octobei 26, 2017. Having
reviewed the record and the parties' arguments, the Court holds that there was no reversible error
in the judgment. Therefore, the Court affirms the trial court's judgment. Appellant shall pay all
costs relating to this appeal, both in this Court and the court below.

APPENDIX B

FILE COPY

DATE: 1/25/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
' STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.
Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MR. JUAN A. MARTIN-DE-NICOLAS
* DELIVERED VIA E-MAIL & POSTAL *

FELE COP'

DATE: 1/25/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
_
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.
Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

MR. JEFFREY D. KYLE
CLERK, THIRD COURT OF APPEALS
209 WEST 14TH STREET, ROOM 101
AUSTIN, TX 78701
* DELIVERED VIA E-MAIL *

FILE COPY

FELE COPY

DATE: 1/25/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

DATE: 1/25/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

Today the Supreme Court of Texas denied the petition
for review in the above-referenced case.

COUNTY CLERK TRAVIS COUNTY
TRAVIS COUNTY COURT
P. 0. BOX 149325
AUSTIN, TX 78714
* DELIVERED VIA E-MAIL *

MR. BRETT HERMES PAYNE
WALTERS, BALIDO & CRAIN, L.L.P.
GREAT HILLS CORP. CTR., BLDG. II,
SUITE 225
9020 N. CAPITAL OF TEXAS HWY.
AUSTIN, TX 78759
* nr,Trwupvn

WTA

V-MTTT

*

FILE COPY

FILE COPY

DATE: 5/3/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA 4: 03-17-00054-CV
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

DATE: 5/3/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

Today the Supreme Court of Texas denied the motion for
rehearing of the above-referenced petition for review.

Today the Supreme Court of Texas denied the motion for
rehearing of the above-referenced petition for review.

MR. JUAN A. MARTIN-DE-NICOLAS
* DELIVERED VIA E-MAIL *

MR. JEFFREY D. KYLE
CLERK, THIRD COURT OF APPEALS
209 WEST 14TH STREET, ROOM 101
AUSTIN, TX 78701
* DELIVERED VIA E-MAIL *

FILE COPY

FILE COPY

DATE: 5/3/2019
RE: Case No. 18-0713
COA #: 03-17-00054-CV
TC#: C-1-CV-16-003312
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

DATE: 5/3/2019
RE: Case No. 18-0713
TC#: C-1-CV-16-003312
COA #: 03-17-00054-CV
STYLE: MARTIN-DE-NICOLAS v. AAA TEX. CNTY. MUTUAL INS. CO.

Today the Supreme Court of Texas denied the motion for
rehearing of the above-referenced petition for review.

Today the Supreme Court of Texas denied the motion for
rehearing of the above-referenced petition for review.

COUNTY CLERK TRAVIS COUNTY
TRAVIS COUNTY COURT
P. 0. BOX 149325
AUSTIN, TX 78714
* DELIVERED VIA E-MAIL *

MR. BRETT HERMES PAYNE
WALTERS, BALIDO & CRAIN, L.L.P.
GREAT HILLS CORP. CTR., BLDG. II,
SUITE 225
9020 N. CAPITAL OF TEXAS HWY.
AUSTIN, TX 78759
* MVTTAMDVn CTTA V.-MATT *

